Proof of Service

The following Writ of Certiorari & Appendix was submitted to the
following parties at the following locations via US Postal Mail on
Wednesday August 4, 2021'
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Third Circuit Court of Appeals
601 Market St Ste 18614,
Philadelphia, PA 19106
Case 20-2801
District Court, Newark
50 Walnut St Rm 4015,
Newark, NJ 07102
2:15 CV 03999; Rosado v. AG

^

US Attorney’s Office Camden

y(

401 Market Street
Camden, NJ 08102
US Attorney’s Office —
970 Broad Street
Newark, NJ 07102

RECEIVED
AU6 -9 2021

NJ Appellate Division Clerk's Office,
P.O. Box 006
Trenton, New Jersey, 08625
2:15 cv 03999,1201W2020 000354 & appeal AQ02741-20T4
1201XTR2020-2 & appeal A000819-20

Middlesex County Prosecutor’s Office
25 Kirkpatrick St #3
New Brunswick, NJ 08901
>

2:15 cv 03999,1201W2020 000354 & appeal A002741-20T4
1201XTR2020-2 & appeal A000819-20

Proof of Service

The following Writ of Certiorari & Appendix & other documents was
submitted to the following parties at the following locations via US
Postal Mail on Friday August 20, 2021:
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Third Circuit Court of Appeals
601 Market St Ste 18614,
Philadelphia, PA 19106
Case 20-2801
District Court, Newark
50 Walnut St Rm 4015,
Newark, NJ 07102
2:15 CV 03999; Rosado v. AG
US Attorney’s Office Camden
401 Market Street
Camden, NJ 08102
US Attorney’s Office
970 Broad Street
Newark, NJ 07102
Daniel Meyler, J. Andrew Ruymann, Alex Silagi (1 copy each)

NJ Appellate Division Clerk's Office,
P.O. Box 006
Trenton, New Jersey, 08625
2:15 cv 03999,1201W2020 000354 & appeal A002741-20T4
1201XTR2020-2 & appeal A000819-20

Middlesex County Prosecutor’s Office
25 Kirkpatrick St #3
New Brunswick, NJ 08901
2:15 cv 03999,1201W2020 000354 & appeal A002741-20T4
1201XTR2020-2 & appeal A000819-20

